                                      SOCIAL SECURITY
MEMORANDUM

Date:   May 6, 2003                                                        Refer To:

To:     Beatrice M. Disman
        Regional Commissioner

From:   Assistant Inspector General
         for Audit

Subject: Audit of Atlantis Rehabilitation and Nursing Center - A Representative Payee for the
        Social Security Administration (A-02-03-13013)


        Attached is a copy of our final report. Our objectives were to determine whether the
        Atlantis Rehabilitation and Nursing Center (1) had effective safeguards over the receipt
        and disbursement of Social Security benefits and (2) ensured Social Security benefits
        were used and accounted for in accordance with the Social Security Administration’s
        policies and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Rona Rustigian, Director, at (617) 565-1819.




                                                         S
                                                         Steven L. Schaeffer


        Attachment

        cc:
        Fritz Streckewald
        JoEllen Felice
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       AUDIT OF THE ATLANTIS
   REHABILITATION AND NURSING
    CENTER – A REPRESENTATIVE
       PAYEE FOR THE SOCIAL
     SECURITY ADMINISTRATION


     May 2003    A-02-03-13013


   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVE
Our objectives were to determine whether the Atlantis Rehabilitation and Nursing
Center (Atlantis) (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with the Social Security Administration’s (SSA) policies
and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’1 payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individual’s interests.

Rep Payees are responsible for using benefits to serve the beneficiary’s best interests.
Their duties include:

•   using benefits to meet the beneficiary’s current and foreseeable needs;

•   conserving and investing benefits not needed to meet the beneficiary’s current
    needs;

•   maintaining accounting records of how the benefits are received and used;

•   reporting events to SSA that may affect the individual's entitlement or benefit
    payment amount;

•   reporting any changes in circumstances that would affect their performance as a
    Rep Payee; and

•   providing SSA an annual Representative Payee Report (RPR) accounting for how
    benefits were spent and invested.




1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.


Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)                                i
Atlantis (formerly Parkview Healthcare Center) is a for-profit, multi-purpose skilled
nursing facility in Carneys Point, New Jersey. During our audit period, Atlantis was the
Rep Payee for 134 individuals who received Social Security benefits.

RESULTS OF REVIEW

Our audit showed that Atlantis generally (1) had effective safeguards over the receipt
and disbursement of Social Security benefits and (2) ensured Social Security benefits
were used and accounted for in accordance with SSA’s policies and procedures.
However, Atlantis did not always prepare the RPRs accurately.

We also identified two areas where SSA needs to improve its monitoring of Rep
Payees. Specifically, Atlantis was the Rep Payee for eight beneficiaries who were not
recorded in SSA’s Representative Payee System (RPS). Also, SSA could not provide
16 of the 25 RPRs we requested (see Other Matters). We therefore could not
determine whether Atlantis properly met its reporting responsibility for all cases.

CONCLUSIONS AND RECOMMENDATIONS

Generally, Atlantis met its responsibilities. However, Atlantis should exercise more care
in preparing the RPRs. Also, SSA could improve the information about Atlantis in its
RPS. We recommend that SSA:

•   Clarify procedures with the Rep Payee for preparing the RPRs.

•   Correct the RPS to include all beneficiaries for whom Atlantis was selected as Rep
    Payee.

AGENCY COMMENTS
SSA agreed with both of our recommendations. (See Appendix A for the full text of
SSA’s comments.) We also requested comments from the Rep Payee; however,
Atlantis chose not to provide written comments.




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)           ii
                                                                         Table of Contents
                                                                                                                   Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

   Preparation of Representative Payee Reports ........................................................... 4

   Beneficiaries Recorded in the Representative Payee System ................................... 4

CONCLUSIONS AND RECOMMENDATIONS .............................................................. 5

OTHER MATTERS ........................................................................................................ 6

APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – OIG Contacts and Staff Acknowledgments




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)
                                                                        Acronyms
Atlantis                     Atlantis Rehabilitation and Nursing Center

OASDI                        Old-Age, Survivors and Disability Insurance

Rep Payee                    Representative Payee

RPR                          Representative Payee Report

RPS                          Representative Payee System

SSA                          Social Security Administration

SSI                          Supplemental Security Income




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)
                                                                    Introduction
OBJECTIVE

Our objectives were to determine whether the Atlantis Rehabilitation and Nursing
Center (Atlantis) (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with the Social Security Administration’s (SSA) policies
and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’ and recipients’ benefit payments.1 A Rep Payee may be an individual or
an organization. SSA selects Rep Payees for Old-Age, Survivors and Disability
Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
when representative payments would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the beneficiary’s best interests.
Their duties include: 2

•     using benefits to meet the beneficiary’s current and foreseeable needs;

•     conserving and investing benefits not needed to meet the beneficiary’s current
      needs;

•     maintaining accounting records of how the benefits are received and used;

•     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount;

•     reporting any changes in circumstances that would affect their performance as a
      Rep Payee; and

•     providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent and invested.




1
    42 U.S.C. §§ 405(j) and 1383(a)(2).
2
    Id.; 20 C.F.R. Part 404, Subpart U, and Part 416, Subpart F.


Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)           1
About 7.6 million individuals have Rep Payees—approximately 4.5 million are OASDI
beneficiaries, 2.3 million are SSI recipients, and 800,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of individuals
they serve.

                                                          Number             Number of
                Type of Rep Payee                            of              Individuals
                                                         Rep Payees            Served
 Individual Payees: Parents, Spouses,
 Adult Children, Relatives, and Others                         5,333,200           6,685,100
 Organizational Payees: State Institutions,
 Local Governments and Others                                    41,500             807,400
 Organizational Payees: Fee-for-Service                             900             104,200
 TOTAL                                                         5,375,600           7,596,700
Source: Master Representative Payee File as of January 2003.

Atlantis is a for-profit, multi-purpose skilled nursing facility in Carneys Point, New
Jersey. As a multi-purpose facility, Atlantis provides nursing home services (138 beds)
and assisted living services (24 beds) to its residents. Before March 2002, Atlantis was
named Parkview Healthcare Center. During our audit period, Atlantis was the Rep
Payee for 134 individuals who were receiving Social Security benefits.

Atlantis has a contractual arrangement with Broadway Healthcare Management to
perform all of its accounting functions. Broadway Healthcare Management is located in
Hackensack, New Jersey.

Atlantis provides residents receiving OASDI benefits $35 per month from their benefits
for their personal expenses. Atlantis uses the remaining amount for housing and food.
Most SSI recipients are provided $40 per month in payments from Social Security, and
the entire amount is provided to the residents for their personal expenses. Medicaid per
diem payments cover the SSI recipients’ housing and food costs. SSI recipients living
in the assisted living section of the facility are paid a higher congregate care rate and
receive $78.50 (effective January 2002, $80.50) per month for their personal expenses.

SCOPE AND METHODOLOGY
Our audit covered the period May 1, 2001 through April 30, 2002. During this period,
Atlantis served as Rep Payee for 134 individuals. To accomplish our objectives, we:

•   Reviewed the Social Security Act and SSA’s policies and procedures pertaining to
    Rep Payees.

•   Contacted SSA regional office and field office staffs to obtain background
    information about the Rep Payee’s performance.



Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)               2
•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in the Rep Payee’s care as of April 30, 2002 or who left the Rep Payee’s care
    after May 1, 2001.

•   Obtained from the Rep Payee a list of individuals who were in its care and had
    received SSA funds as of April 30, 2002 or who left its care after May 1, 2001.

•   Compared and reconciled the RPS list to the Rep Payee’s list to identify the
    population of SSA beneficiaries who were in the Rep Payee’s care from May 1, 2001
    to April 30, 2002.

•   Reviewed the Rep Payee’s internal controls over the receipt and disbursement of
    OASDI benefits and SSI payments.

•   Performed the following tests for a simple random sample of 50 beneficiaries.

    -   Compared and reconciled benefit amounts received according to the Rep
        Payee’s records to benefit amounts paid according to SSA’s records.

    -   Reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individual’s behalf.

    -   Traced a sample of recorded expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

•   Interviewed a sample of eight beneficiaries to determine whether their basic needs
    were being met.

•   Reviewed a sample of nine RPRs to determine whether the Rep Payee properly
    reported to SSA how benefits were used.

•   Reviewed a sample of five Representative Payee Applications (Form SSA-11) to
    evaluate the completeness and appropriateness of the information provided on the
    applications.

We determined the Rep Payee’s computer processed data to be sufficiently reliable for
our intended use. Further, any data limitations are minor in the context of this
assignment, and the use of the data should not lead to an incorrect or unintentional
message. We tested benefit payment receipts and disbursements recorded in the Rep
Payee's accounting system. We conducted tests to determine the completeness,
accuracy and validity of the data. These tests allowed us to assess the reliability of the
data and achieve our audit objectives. We performed our audit in Carneys Point and
Hackensack, New Jersey, and New York, New York, from July to December 2002. We
conducted our audit in accordance with generally accepted government auditing
standards.



Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)             3
                                                              Results of Review
Our audit showed that Atlantis generally (1) had effective safeguards over the receipt
and disbursement of Social Security benefits and (2) ensured Social Security benefits
were used and accounted for in accordance with SSA’s policies and procedures. This
determination was based on a review of 50 beneficiaries who received $262,359 in SSA
funds during the audit period. However, Atlantis did not always prepare the RPRs
accurately.

We also identified one area where SSA needed to improve its monitoring of Rep
Payees. Specifically, Atlantis was the Rep Payee for eight beneficiaries who were not
recorded in SSA’s RPS.

Preparation of         We examined nine RPRs obtained from SSA and found that five
Representative         were inaccurate. All five of the RPRs demonstrated the same
Payee Reports          pattern of preparation. The amounts reported as saved for the
                       beneficiaries at the end of the reporting period were exactly the
                       same as reported for the previous period. Also, the amount
reported as spent for the beneficiaries’ needs was always $420, or the entire annual
amount of the monthly $35 personal expense allowance provided to OASDI
beneficiaries, even though one individual was on SSI and received a higher monthly
personal expense allowance.

Beneficiaries           The Omnibus Budget Reconciliation Act of 19903 requires that
Recorded in the         SSA provide for specific identification and control of all Rep
Representative          Payees and the beneficiaries they serve. As a result, SSA
Payee System            established RPS, an on-line system for entering and retrieving
                        information about Rep Payees and those applying to be Rep
Payees. RPS contains data about Rep Payee applicants, beneficiaries in the Rep
Payee’s care, and the relationship between the Rep Payee and the beneficiaries. In
addition, SSA uses the RPS to select a sample of beneficiaries for review during its site
visits of Rep Payees.

To determine the number of beneficiaries in Atlantis’ care, we compared Atlantis’
records to information contained in RPS. As a result, we identified eight beneficiaries
for whom Atlantis was serving as Rep Payee but for whom Atlantis was not recorded as
the Rep Payee in the RPS.

We found that SSA personnel can bypass RPS to establish a Rep Payee. Agency staff
can establish a Rep Payee by identifying individuals or organizations as the
beneficiaries’ Rep Payee directly on the Master Beneficiary Record or the Supplemental
Security Record—SSA’s systems for recording eligibility to OASDI benefits and SSI
payments, respectively.

3
    Pub. L. No. 101-508, sec. 5105(a)(2) (codified at 42 U.S.C. § 405(j)(2)).


Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)           4
                                                    Conclusions and
                                                   Recommendations
Generally, Atlantis (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with SSA’s policies and procedures. However, Atlantis
should exercise more care in preparing the RPRs. Also, SSA could improve the
information about Atlantis contained within its RPS. We recommend that SSA:

1. Clarify procedures with the Rep Payee for preparing the RPRs.

2. Correct the RPS to include all beneficiaries for whom Atlantis was selected as Rep
   Payee.

AGENCY COMMENTS
SSA agreed with both of our recommendations. Specifically, SSA (1) provided training
to the Atlantis staff on how to prepare the RPRs and (2) is comparing a list of Atlantis
residents and RPS to identify any beneficiaries who are not listed in RPS. In addition,
SSA is conducting training at the local field office to ensure RPS is not bypassed in the
future. (See Appendix A for the full text of SSA’s comments.) We also requested
comments from the Rep Payee; however, Atlantis chose not to provide written
comments.




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)            5
                                                               Other Matters
One method SSA uses to monitor Rep Payees is the RPR. The RPR is intended to
assist SSA in determining the (1) use of benefits during the preceding 12-month
reporting period, (2) Rep Payee’s continuing suitability, and (3) continuing need for
representative payment.4 Depending on the Rep Payee’s responses, SSA may contact
the Rep Payee to determine its continued suitability. We found that SSA could not
always retrieve Atlantis’ completed RPRs.

As part of our audit, we planned to review a sample of completed RPRs to determine
whether Atlantis met its reporting responsibilities. We requested from SSA the most
recently completed RPRs for 25 beneficiaries. However, SSA only provided 9 of the
25 RPRs we requested. Because SSA did not provide all of the RPRs requested, we
could not independently confirm whether Atlantis met its reporting responsibilities for all
cases. In addition, we were unable to determine whether some RPRs were not
provided because they could not be located or because they were never submitted.

In response to our draft report, SSA reported that it was testing a concept allowing
organizations that serve as Rep Payees for thousands of beneficiaries to electronically
file RPRs via the Internet. As of the date of this review, annual reports were filed in
paper form. SSA’s pilot is expected to last 6 months. If the pilot is successful, it will
provide Rep Payees with another way to fulfill their reporting responsibilities. SSA
expects electronic filing to

    •   reduce follow-up contacts by alerting the Payee to provide missing information or
        correct conflicting information before the report is transmitted;

    •   result in RPRs that are more complete and have fewer inconsistencies; and

    •   provide for easier location of the RPRs and a better way to determine whether a
        report was submitted.




4
 See SSA’s Program Operations Manual System, sections GN 00605.065, GN 00605.066,
GN 00605.067, GN 00605.090, and GN 00605.221.


Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)              6
                                            Appendices




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)
                                                                           Appendix A

Agency Comments




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)
                                      SOCIAL SECURITY
MEMORANDUM


Date:   April 14, 2003                                                        Refer To: S2D2G3

To:     Assistant Inspector General for Audit

From:   Regional Commissioner
        New York

Subject: Audit of Atlantis Rehabilitation and Nursing Center- An Organizational Representative
        Payee For the Social Security Administration (A-02-03-13013)-REPLY

        Thank you for the opportunity to comment on the above-mentioned audit.

        We agree with the audit report's recommendations and are pursuing the following
        corrective actions.

        The FO recently provided training/guidance to the Atlantis staff ensuring they fully
        understand how the Representative Payee Accounting Reports should be completed.
        SSA recognizes the importance of the representative payee accounting reports. The
        payee responses are indicators about payee performance that may trigger the need for
        recontact with and reevaluation of the payee.

        The report indicated SSA could not provide the entire requested sample of completed
        Representative Payee Reports for review. As a result, the audit could not determine
        whether Atlantis properly reported to SSA how the benefits were used. In addition, the
        audit could not determine whether some of the Representative Payee Reports were not
        provided because they could not be located or because they were never submitted.
        SSA is currently conducting a pilot, which if successful will ensure the completed
        Representative Payee Reports are easily retrievable and identify if they were never
        submitted.

        SSA is testing a concept allowing organizations that serve as representative payees for
        thousands of Social Security and Supplemental Security Income beneficiaries to
        electronically file via the Internet the required annual reports. At present, annual reports
        are filed on a paper form. The pilot is expected to last 6 months. If the pilot is
        successful, it would provide payees with another way to fulfill their reporting
        responsibilities. Electronic filing has the potential to reduce follow-up contacts by



        Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)         A-1
alerting the payee to provide missing information or correct conflicting information
before the report is transmitted. Electronic reporting will result in Representative Payee
Reports that are more complete and have fewer inconsistencies. It will also provide for
easier location of the reports and a better way to identify if a report was never
submitted.

Regarding the second recommendation, the FO is currently obtaining a complete list of
residents who Atlantis is payee for and comparing the listing to RPS, as a result
capturing any beneficiaries who are not listed in RPS.

In addition, RPS training at the local FO is taking place to ensure RPS is not bypassed
in the future. Agency staff should not be identifying individuals or organizations as the
beneficiaries' representative payee on the Master Beneficiary Record or the
Supplemental Security Record without establishing the application on RPS.

Any questions concerning the above comments can be directed to Angela Caputo of the
Program Operations Center, RSI Team at (212)264-4402.


                                                             /s/
                                                    Beatrice M. Disman




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)       A-2
                                                                           Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Rona Rustigian, Director, (617) 565-1819

    Tim Nee, Deputy Director, (212) 264-5295


Staff Acknowledgments
In addition to those named above:

    Robert Blake, Senior Auditor

    Arthur Treglia, Senior Auditor

    Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-03-13013.




Atlantis Rehabilitation and Nursing Center – A Rep Payee for SSA (A-02-03-13013)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Atlantis Rehabilitation and Nursing Center
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
